F--

No. 19-929
the

ilpretne Court of tbe uiteb itate5
LOUIS S. SHUMAN; SANDRA SHUMAN,
Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit
PETITION FOR REHEARING

Louis S. Shuman
120 South Lee Street
Alexandria, VA 22314
(301) 641-6003
Email: lshumani@msn.com

Sandra Shuman
120 South Lee Street
Alexandria, VA 22314
(301) 641-6003
Petitioner Pro Se

Petitioner Pro Se

Becker Gallagher Cincinnati, OH Washington, D.0

800.890.5001

RECEIVED
APR 1- 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

TABLE OF CONTENTS
TABLE OF AUTHORITIES

ii

PETITION FOR REHEARING.

1

1. Well Settled Rules Governing Summary
Judgment, On the Admissible Evidence in this
Case, Show Petitioner's Entitlement to Prevail
in this Case, Thereby Warranting the Granting
of their Petition
1
2 Impact of COVID

3

CONCLUSION

5

CERTIFICATION

6

1 .
)SO&

A9A

ii
TABLE OF AUTHORITIES
CASES
Anderson v. Liberty Lobby Inc.,
477 U.S. 242 (1986)
Gatlin v. Commisioner,
754 F.2d 921 (11th Cir. 1985)

2, 3
1

Helvering v. Taylor,
293 U.S. 507 (1935)

1, 2

Matsushita Electric Industrial Co. v. Zenith
Radio Corp.. 475 U.S. 574 (1986)

2, 3

Trescott v Commissioner,
TC Memo 2012-321(TC-2012)

1

Wickwire v. Reinecke,
275 U.S.101 (1927)

1

RULE
Fed. R. Civ. P. 56

2

1
PETITION FOR REHEARING
Pursuant to Rule 44, Petitioner hereby respectfully
petitions the U.S. Supreme Court for rehearing of this
case on the grounds that the Court's denial of their
Petition for Writ of Certiorari should be reversed
because: (1) of substantial grounds not previously
presented, and (2) on the grounds that intervening
circumstances , of a substantial or controlling nature,
have effected, and impacted, this case.
1. Well Settled Rules Governing Summary
Judgment, On the Admissible Evidence in this
Case, Show Petitioner's Entitlement to Prevail
in this Case, Thereby Warranting the
Granting of their Petition.
It is settled law that the IRS's Notice of Deficiency
is presumed correct, and the taxpayer must present
sufficient admissible evidence to rebut this
presumption. Wickwire v. Reinecke, 275 U.S. 101
(1927).
It is also settled law that when the taxpayer
submits sufficient admissible evidence to rebut the IRS
presumption, the burden of proof shifts to the IRS to
support its position for rejecting the refund claims,
with admissible evidence, and not mere conclusory,
unsubstantiated statements. Gatlin v. Commisioner
754 F.2d 921 (11th Cir. 1985); Trescott v.
Commissioner, TC Memo 2012-321(TC-2012);
Helvering v. Taylor, 293 U.S. 507 (1935).
The record in this case clearly shows Petitioner met
their burden of submitting substantial admissible
evidence in support of their refund claim. Once

2
Petitioner met its burden, as was done in this case, the
burden of proof passed to the IRS to support its
position. Helvering, supra.
The record in this clearly shows that IRS presented
no admissible evidence whatsoever in opposition to
Petitioners claims regarding stock option basis
calculations. On this basis, IRS objections, unsupported
by any evidence to the contrary, was legally insufficient
to deny Petitioner's refund claims based on calculation
of stock option basis.
Given the complete absence of any evidence
presented by IRS, in opposition to Petitioner's refund
claims, based on stock option basis calculations, under
settled principles of FRCP 56 rules governing summary
judgment motions, Petitioner would have been entitled
to a judgment in its favor as a matter of law. FRCP 56;
Anderson v. Liberty Lobby Inc., 477 U.S. 242 (1986).
FRCP 56 makes it very clear that when there is no
genuine issue as to any material fact, summary
judgment is mandated. Anderson, supra. It is settled
law that there is no genuine issue of material fact,
when the motion for summary judment shows that the
opposing party has failed to present evidence to
support their case; and, to support their case, the
opposing party is not permitted to rely on mere
allegations, but must submit specific facts showing
evidence to support their position. Matsushita Electric
Industrial Co. v. Zenith Radio Corp, 475 U.S. 574
(1986).
In this case, the record is void of any specific facts,
or evidence, presented by IRS, in opposition to

3
Petitioner's refund claims based on stock option basis
calculations.
In addition, the facts and law submitted by
Petitioner to support their claim of timeliness of their
refund claim regarding stock option basis, on statute of
limitations grounds, were also, in no way on the record,
rebutted by IRS. Anderson v. Liberty Lobby Inc., supra;
Matsushita Electric Industries, supra.
For the foregoing reasons, it is respectfully
submitted that the Court should grant Petitioner's
Petition in this case.
2. Impact of COVID-19
The Court's denial of this Petition required that
Petitioner expeditiously proceed to comply with the
adverse decision by finding the means to satisfy the
upcoming IRS demands for payment.
Petitioner, as a dentist, is immediately affected by
the Presidential decree that the entire country is in a
state of emergency, as is everyone else. Dental offices
are extremely risky given the nature of the work, which
requires close proximity to the mouth, nose and face of
patients. As a result, as advised by the American
Dental Association, and other governmental bodies
concerned with human health, dental offices are
shutting down for regular business, except for
emergencies. This has had a direct and immediate
impact on Petitioner's business, affecting cash flow,
overhead, and the ability to meet the oncoming IRS
demands for payment.

4
Petitioner, having had cancer surgery in 2019, and
also being diabetic, is among the group of persons most
dangerously affected by COVID-19.
The Court can take judicial notice of the limited
relief IRS has publicized, regarding extension of tax
deadlines, and limited suspension of interest charges.
This may not be enough at a time when overhead
continues, but cash flow drops, and even stops.
The Dental industry can not work from home, and
must see patients, face to face, to perform its regular
business. It is respectfully requested that any decision
on this motion, under these extraordinary and
emergency circumstances, be delayed, during the
period of this national emergency, but, at the least for
the next 120 days, while this emergency situation
unfolds, and there is more certainty as to when
business can resume without direct and immediate
danger to human health.

5
CONCLUSION
Based on the foregoing, it is respectfully requested
that this motion for rehearing be granted; and that
there be a stay of these proceedings as above requested.
Respectfully submitted,
Louis S. Shuman
120 South Lee Street
Alexandria, VA 22314
(301) 641-6003
Email: lshumani@msn.com
Petitioner Pro Se
Sandra Shuman
120 South Lee Street
Alexandria, VA 22314
(301) 641-6003
Petitioner Pro Se
March 27, 2020

6
CERTIFICATION OF PETITIONER PRO SE
I hereby certify that this Petition For Rehearing is
presented in good faith and not for delay.

/VI 1

IN wri

uis . Shin, n

120 South Lee Street
Alexandria, VA 22314
(301) 641-6003
Email: lshumani@msn.com
Petitioner Pro Se

120 South Lee Street
Alexandria, VA 22314
(301) 641-6003
Petitioner Pro Se

